<html>
<title> - LEGISLATIVE HEARING TO REVIEW PENDING FOREST SERVICE AND FORESTRY RELATED BILLS</title>
<body><pre>[Senate Hearing 114-154]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-154

                         LEGISLATIVE HEARING TO
                     REVIEW PENDING FOREST SERVICE
                       AND FORESTRY RELATED BILLS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 16, 2015

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.fdsys.gov/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-182 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
DAVID PERDUE, Georgia                MICHAEL BENNET, Colorado
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
BEN SASSE, Nebraska                  HEIDI HEITKAMP, North Dakota
CHARLES GRASSLEY, Iowa               ROBERT P. CASEY, Jr., Pennsylvania
JOHN THUNE, South Dakota

               Joel T. Leftwich, Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
              Jonathan J. Cordone, Minority Chief Counsel

                                  (ii)













































  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Legislative Hearing to Review Pending Forest Service and Forestry 
  Related Bills..................................................     1

                              ----------                              

                        Thursday, July 16, 2015
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition and Forestry.....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     1
Shaheen, Hon. Jeanne, U.S. Senator from the State of New 
  Hampshire......................................................     2
Perdue, Hon. David, U.S. Senator from the State of Georgia.......     3
Bennet, Hon. Michael, U.S. Senator from the State of Colorado....     4
Thune, Hon. John, U.S. Senator from the State of South Dakota....    14

                                Witness

Bonnie, Hon. Robert, Under Secretary, United States Department of 
  Agriculture, Washington, DC....................................     5
                              ----------                              

                                APPENDIX

Prepared Statements:
Roberts, Hon. Pat................................................    22
Stabenow, Hon. Debbie............................................    24
Alexander, Hon. Lamar............................................   116
Brown, Hon. Sherrod..............................................    26
Enzi, Hon. Michael B.............................................    86
Perdue, Hon. David...............................................    27
Thune, Hon. John.................................................    29
Bonnie, Hon. Robert..............................................    37

Document(s) Submitted for the Record:
Roberts, Hon. Pat:

                     S.1100--Prescribed Burn Bill:

    Sen. Thune Prescribed Burn Approval Act Hearing Request, July 
      9, 2015....................................................    46
    Eastern Pennington County Cooperative Grazing District, 
      letter of support..........................................    47

         S.1110--National Forest System Trails Stewardship Act:

    American Horse Council, written testimony....................    48
    Back Country Horsemen of Alabama, Inc., letter of support for 
      H.R. 845-National Forest System Trails Stewardship Act.....    50
    Back Country Horsemen of Arizona, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    51
    Back Country Horsemen of America, California, Shasta-Trinity, 
      letter of support for H.R. 845-National Forest System 
      Trails Stewardship Act.....................................    53
    Back Country Horsemen of Colorado, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    55
    Back Country Horsemen of Idaho letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    56
    Back Country Horsemen of Indiana letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    57
    Back Country Horsemen of Kansas, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    59
    Back Country Horsemen of Kentucky, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    60
    Back Country Horsemen of Kentucky, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    61
    Back Country Horsemen of Michigan, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    62
    Back Country Horsemen of Michigan, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    63
    Back Country Horsemen of Mississippi, letter of support for 
      H.R. 845-National Forest System Trails Stewardship Act.....    64
    Back Country Horsemen of Missouri, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    66
    Back Country Horsemen of Montana letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    67
    Back Country Horsemen of Nevada, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    68
    Back Country Horsemen of Oregon letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    69
    Back Country Horsemen of Tennessee letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    70
    Back Country Horsemen of Tennessee letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    72
    Back Country Horsemen of Virginia, Iron Mountain Chapter, 
      letter of support for H.R. 845-National Forest System 
      Trails Stewardship Act.....................................    74
    Back Country Horsemen of Washington letter of support for 
      H.R. 845-National Forest System Trails Stewardship Act.....    75
    Back Country Horsemen of Washington letter of support for 
      H.R. 845-National Forest System Trails Stewardship Act.....    76
    National Forest System Trails Stewardship Act, list of 
      supporters.................................................    77
    Oregon Outdoor Organizations, letter of support for S.1110-
      National Forest System Trails Stewardship Act..............    79
    Pacific Crest Trail Association, letter of support for H.R. 
      845-National Forest System Trails Stewardship Act..........    81
    Various Organizations, letter of support for H.R. 845-
      National Forest System Trails..............................    83
    Various Organizations, letter of support for S. 1110-National 
      Forest System Trails Stewardship Act.......................    85
    National Forest System Trails Stewardship Act, hearing 
      request from Hon. Michael B. Enzi and Hon. Michael F. 
      Bennet.....................................................    88
    Western Governors' Association, letter of support for S. 
      1110-National Forest System Trails Stewardship Act.........    89

                  S.1671--National Forest Foundation:

    Hearing Request Letter from Hon. Michael F. Bennet...........    90
    Friends of the Dillon Ranger District (FDRD), letter of 
      support....................................................    91
    The Northeast Washington Forestry Coalition (NEWFC), letter 
      of support.................................................    92
    National Forest Foundation (NFF), reauthorization letter.....    93
    Polaris Industries Inc., letter of support...................    94
    Student Conservation Association (SCA), letter of support....    95
    Water Department, City of Aurora, Colorado,letter of support.    96
    Volunteers for Outdoor Colorado (VOC), letter of support.....    97

                        S.1712--Small Tract Act:

    The Wilderness Society, statement for the record on S.1110, 
      S.1100, S.775, S.1712......................................    99

  S.1744--Chattahoochee Oconee National Forest Land Adjustment Act of 
                                 2015:

    Commissioner of Chattooga County, letter of support..........   102
    Hearing Request Letter from Hon. Johnny Isakson and Hon. 
      David Perdue...............................................   103
    USDA, Forest Service, written testimony concerning S.1744....   104
    Various organizations of Georgia, letter of support for 
      S.1744.....................................................   105

               S.61--Kisatchie National Forest Land Bill:

    Hearing request letter from Hon. David Vitter on S.61-
      Kisatchie Bill.............................................   113

                   S.755--Tennessee Wilderness Bill:

    The Pew Charitable Trusts, letter of support for S.755.......   114
    Various organizations, letter of support for S.755...........   117

Shaheen, Hon. Jeanne:

                 S.1733--Forest Incentives Program Act:

    Appalachian Mountain Club (AMC), letter of support...........   128
    Forest Climate Group, written testimony, letter of support...   129
    Hearing request from Hon. Jeanne Shaheen concerning S.1733...   130
    New England Forestry Foundation, letter of support...........   131
    New England Forestry Foundation, ``Build it With Wood: The 
      Green Carbon Pump'', Supplement to letter of support.......   132
    NH Audubon, letter of support for S.1733.....................   134

Thune, Hon. John:
    Eastern Pennington County Cooperative Grazing District, 
      written testimony..........................................   135

Question and Answer:
Bonnie, Hon. Robert:
    Written response to questions from Hon. Pat Roberts..........   138
    Written response to questions from Hon. John Hoeven..........   145
    Written response to questions from Hon. John Thune...........   146
 
                         LEGISLATIVE HEARING TO
                     REVIEW PENDING FOREST SERVICE
                       AND FORESTRY RELATED BILLS

                              ----------                              


                        Thursday, July 16, 2015

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Perdue, Ernst, Tillis, Sasse, Grassley, Thune, Stabenow, Brown, 
Klobuchar, Bennet, Gillibrand, Donnelly, Heitkamp, and Casey.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Today, we will hear testimony from the Department of 
Agriculture on several Forest Service and forestry related 
pieces of legislation that have been referred to our committee. 
I welcome and thank our witness, Under Secretary Robert Bonnie, 
for attending today's hearing.
    Due to the vote at 10:45, we are like King Tut. We are 
pressed for time. So, I am going to simply submit my statement 
for the record, I ask unanimous consent to do so. Without 
objection, it is so ordered.
    [The prepared statement of Hon. Pat Roberts can be found on 
page 22 in the appendix.]
    Chairman Roberts. I yield to the distinguished Ranking 
Member.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Thank you, Mr. Chairman, for holding the 
hearing. I am not sure King Tut is exactly the image--I do not 
know. We will have to think about that.
    [Laughter.]
    Senator Stabenow. But, welcome to our Under Secretary for 
Natural Resources and Environment, Robert Bonnie. Welcome. 
Thank you for your leadership.
    Right on time, Senator Shaheen is walking in the door, and 
so we welcome her and her leadership on legislation.
    Mr. Chairman, I just want to thank you for putting together 
a bipartisan package of bills and really reflecting and 
building on what we did in the forestry title and other parts 
of the farm bill, conservation and so on, and I will submit my 
comments for the record. Thank you.
    [The prepared statement of Hon. Debbie Stabenow can be 
found on page 24 in the appendix.]
    Chairman Roberts. Thank you. I thank the distinguished 
Senator.
    Before we turn to our witness this morning, I ask unanimous 
consent to enter a variety of material into the hearing record. 
I would like to submit statements for the record from Senators 
Enzi and Alexander on their bills, as well as numerous letters 
of support for the legislation before the committee. I would 
only add the paper industry will be pleased to know that the 
committee has received a stack of letters of support in hard 
copy for the various pieces of legislation in today's hearing.
    [The prepared statement of Hon. Michael B. Enzi can be 
found on page 86 in the appendix.]
    [The prepared statement of Hon. Lamar Alexander can be 
found on page 116 in the appendix.]
    [The following information can be found on pages 47-117 in 
the appendix.]
    Chairman Roberts. Our first--oh, there is Senator Shaheen. 
I recognize Senator Shaheen for comments she may make on her 
bill that she has introduced. The distinguished Senator is 
recognized.

 STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM THE STATE 
                        OF NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Chairman Roberts and 
Ranking Member Stabenow and members of the committee, for the 
opportunity to testify this morning on legislation critical to 
improving forest conservation in the U.S.
    Of all U.S. forests, more than half are privately owned and 
more than a third are owned by families and individuals. 
Private forest lands play a critical role in our rural 
economies. In New Hampshire, for example, the forest products 
industry contributes $3.9 billion to the state's economy and 
employs over 8,000 people. Private forests also protect 
wildlife habitats, improve air quality, and reduce carbon in 
the atmosphere. In fact, U.S. forests and forest products 
offset about 12 to 14 percent of U.S. carbon emissions 
annually, which makes forests one of the largest carbon sinks 
in the country.
    Unfortunately, many private forest owners are under 
significant pressure to develop their land. Recent research by 
the U.S. Forest Service showed that housing densities are on 
the rise in areas where family-owned forest land keeps our 
drinking water clean and protects wildlife.
    What is more, without proper management practices, many 
forests and their ecosystems are at risk of disappearing 
entirely. Land owners need a long-term plan that makes forest 
management more affordable and ultimately helps forest owners 
preserve their land.
    Last week, I introduced the Forest Incentives Program Act 
of 2015. It aims to keep forests intact by providing financial 
incentives to private forest owners who undertake sustainable 
forestry management practices. Landowners would agree to 
maintain these practices under contracts with the U.S. 
Department of Agriculture for at least 15 years, and landowners 
who agree to a contract to permanently protect their lands 
would receive additional payments.
    Since more than 90 percent of America's wood products come 
from private forests, the bill also promotes the use of 
biological products, including wood, instead of more energy-
intensive materials. Wood products are a cost effective choice 
for many building projects because they can often be locally 
sourced, delivered quickly, and take less time to construct 
than with other building materials.
    Now, with the committee's assistance, I am hopeful that we 
can advance this important legislation. The bill has already 
won broad support from groups including the National Alliance 
of Forest Owners, the Appalachian Mountain Club, and the 
American Forest Foundation.
    I want to thank you all again for allowing me to testify 
this morning and I look forward to working with the entire 
committee to advance the Forest Incentives Program Act. Thank 
you very much.
    Chairman Roberts. I understand that Senator Perdue and the 
distinguished Senator from Colorado may have bills also before 
the committee in reference to this subject. Senator Perdue, you 
were first. Would you like to make a short statement?
    Senator Shaheen. Mr. Chairman, may I be excused to go to 
Appropriations?
    [Laughter.]
    Chairman Roberts. Oh, I am sorry. No, Senator Shaheen, we 
are going to keep you for the entire hearing.
    [Laughter.]
    Senator Stabenow. Mr. Chairman, would you mind if--I just 
want to thank Senator Shaheen. She has worked really, really 
hard on this whole area, which is very, very important. We 
appreciate your leadership, and thank you, Mr. Chairman, for 
including this important bill in the package.
    Senator Shaheen. Thank you all very much.
    Chairman Roberts. Thank you, Senator Shaheen, so much for 
coming. Sorry for that.
    Senator Perdue, would you like to make a short statement? 
We are trying to get out of here before 10:45.

STATEMENT OF HON. DAVID PERDUE, U.S. SENATOR FROM THE STATE OF 
                            GEORGIA

    Senator Perdue. I would like to put it in the record.
    [The prepared statement of Senator Perdue can be found on 
page 27 in the appendix.]
    Chairman Roberts. Senator Bennet.

 STATEMENT OF HON. MICHAEL BENNET, U.S. SENATOR FROM THE STATE 
                          OF COLORADO

    Senator Bennet. Thank you, Mr. Chairman. Thank you, 
Chairman Roberts and Senator Stabenow, for holding today's 
hearing and for allowing me to speak very briefly in support of 
three bills that are before the committee today, S. 1110, S. 
1671, and S. 1712.
    Senator Mike Enzi has been a tremendous partner on S. 1110, 
the National Forest System Trail Stewardship Act. This bill 
would help us maintain and enhance trails on our public lands 
through volunteer efforts. Only one-quarter of the National 
Forest System trails are adequately maintained. Volunteers can 
help fill this gap. Just last year, more than 650 volunteers 
logged over 11,000 hours of trail maintenance on the world 
class Colorado Trail, which Caroline Bennet claims she is going 
to hike in her junior year of high school.
    [Laughter.]
    Senator Bennet. The bill I am cosponsoring with Senator 
Enzi is designed to encourage similar efforts.
    I would also like to mention two other bills before the 
committee today. S. 1671 reauthorizes the Forest Service's 
program to provide matching funds to the National Forest 
Foundation. For example, through this foundation, guests at 
Colorado's ski resorts can give small, matched donations for 
restoration projects in the national forest that they are 
enjoying.
    Finally, S. 1712 expands the authority of the Forest 
Service to sell small isolated parcels of land under the Small 
Tracts Act. This bill enhances the ability of the government to 
sell land that is not appropriate for public ownership.
    Mr. Chairman, in closing, I would again thank the committee 
for holding today's hearing and I hope we can move these bills 
forward in the near future.
    Chairman Roberts. Thank you, Senator Bennet.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman.
    I just wanted to say again that what we are doing today 
builds on what we did in the farm bill, which was a great 
bipartisan effort. Members on both sides got terrific programs 
in there that are just now being implemented.
    But, Senator Bennet chaired the Forestry Subcommittee when 
we did the efforts on conservation and forestry in the farm 
bill, so I just want to say thank you for giving us a platform 
to get where we are today.
    Chairman Roberts. Thank you, Senator Bennet. Well done.
    We turn now to our witness, Mr. Robert Bonnie, who serves 
as the Under Secretary for Natural Resources and Environment at 
the Department of Agriculture. He directs the Forest Service 
and Natural Resource Conservation Service, and in a past role 
at the Department, he was the Senior Advisor to Secretary 
Vilsack on environment and climate change. Prior to his time at 
the USDA, Mr. Bonnie was Vice President for Land Conservation 
at the Environmental Defense Fund. He grew up on a farm in 
Kentucky, can sing the Kentucky ``Old Folks at Home,'' earned 
his Master's degree in forestry and resources economics at Duke 
University.
    Welcome, Mr. Bonnie. We look forward to your testimony.

STATEMENT OF ROBERT BONNIE, UNDER SECRETARY, NATURAL RESOURCES 
AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Bonnie. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today, and I will keep my comments brief 
as I know lots of you all have a vote you need to get to. So, 
let me mention a few bills and then turn it back to you, Mr. 
Chairman.
    So, I want to start with the administration's enthusiastic 
support for the Tennessee Wilderness Act. It will add nearly 
20,000 acres to the nation's wilderness system and we strongly 
support the legislation.
    We also strongly support legislation to reauthorize the 
National Forest Foundation. The National Forest Foundation is a 
critical partner of the U.S. Forest Service and allows the 
agency to partner with businesses, foundations, communities, 
and many others to accomplish a variety of important work.
    We strongly support the goals of the National Forest System 
Trails Stewardship Act, which will require the Secretary to 
develop a strategy to increase the use of volunteers in trail 
maintenance. Legislation will help the agency address more than 
$300 million in backlogs of deferred trails maintenance. We 
look forward to working with Senators Bennet and Enzi on some 
aspects of the bill.
    I would also note that the Forest Service trails budget, 
like most areas of the Forest Service budget, has suffered 
significantly due to the impacts of an ever-increasing 
firefighting budget. Today, the Forest Service typically spends 
about half of its budget on wildland firefighting, up from 16 
percent in the mid-1990s. Without a fix to this problem, such 
as the Wildfire Disaster Funding Act, our trails budget and the 
rest of the agency's non-fire budget will continue to erode.
    The administration strongly supports the creation of 
incentives to support carbon sequestration in forests and wood 
products and looks forward to working with Senator Shaheen to 
address some technical and capacity issues in her legislation.
    The administration supports the National Forest Small Tract 
Act Amendments of 2015. The legislation will allow the agency 
to address a large number of small isolated tracts that are 
inefficient and costly to manage and that provide few benefits 
to the public. We would like to work with the sponsors to 
address some concerns in the legislation.
    Lastly, I want to address the Prescribed Burn Approval Act. 
Prescribed fire is a vital tool for the Forest Service to 
reduce the threat of catastrophic fire, to improve forest 
health, to manage rangeland, and to conserve wildlife habitat. 
The agency typically conducts thousands of prescribed fires 
annually. In 2014, the agency burned over 1.3 million acres and 
it had only a single fire, the Pautre fire, get out of control.
    Despite the best efforts of the Forest Service, using 
prescribed fire always carries risk that the fire will jump a 
containment line. However, the risk of not using prescribed 
fire, the risks of catastrophic forest fires on life, property, 
and natural resources, is much greater than the risk of using 
it. USDA and the Forest Service deeply regret the losses 
suffered by affected landowners in the Pautre fire. USDA and 
the Forest Service work hard to take actions to help the 
affected landowners and we welcome a conversation about 
additional steps we can take to assist landowners.
    Our concern with the Prescribed Burn Approval Act is that 
it could have a chilling effect on the use of prescribed fire 
and the agency's efforts to reduce catastrophic wildfire. The 
requirement for local and state approval is likely to 
substantially reduce our ability to use this tool. Restrictions 
on the use of naturally occurring wildfires to reduce hazardous 
fuels could lead to more damaging fires in the future.
    In the wildland firefighting community, there is a broad 
consensus that we need to use more prescribed fire to reduce 
catastrophic wildfire. We welcome a conversation on how we can 
do this safely while minimizing the risks.
    Thank you.
    [The prepared statement of Mr. Bonnie can be found on page 
37 in the appendix.]
    Chairman Roberts. Let me advise members that have just come 
in--Senator Perdue, Tillis, Bennet, and Heitkamp--we are trying 
to get done by 10:45 for the vote, so if you can keep your 
remarks, or your questions, at least, to a minimum.
    I have got a question that falls within the Natural 
Resources and Environment mission area. Last week, the 
Department announced in a press release that 98 percent of 
farmers have successfully filed their necessary paperwork--I 
think the paperwork is AD-1026--for conservation compliance, as 
required by the last farm bill, of the new filers purchasing 
crop insurance that in the past have not had to self-certify 
the compliance.
    My question is, do you have a grasp or some idea of how 
many will trigger an NRCS referral and subsequent 
administrative action from NRCS for a highly erodible land or 
wetland determination? We know that the NRCS has ongoing 
determination backlog issues in certain regions of the country. 
In light of the backlog and the number of new filers, is it 
possible to quantify this workload at the agency and how NRCS 
will prioritize working through the backlog plus any new 
administrative actions?
    Mr. Bonnie. So, I do not have a specific number for you, 
but I am happy to go back and look for that. What I will tell 
you is that we have put additional resources into a number of 
states, particularly in the Dakotas, to reduce the backlog. We 
have also just finalized our off-site methods to look at 
wetland determinations, and our expectation is that will 
further help us reduce the backlog. So, I think we are making 
strides there. There is clearly more to do and we will work 
with NRCS staff and others in the Department to get the answer 
to your questions.
    Chairman Roberts. I appreciate that.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman.
    Under Secretary Bonnie, thank you again for your efforts 
and the Department's efforts. I wondered if you would speak a 
little bit more about prescribed burns, because I am concerned. 
We have a very important package of bills in front of us, a 
bipartisan effort. One of the bills, though, dealing with 
prescribed burns, I think is of concern, needs a little bit 
more work to get this right. I know there was a specific 
concern that the bill responds to, which I totally understand 
and respect. But, I know that while you need to exercise an 
abundance of caution that burns do not get out of control, that 
they are an important tool for the Fire Service.
    So, I wonder if you might speak more about that, because I 
think we need to focus on that and make sure that anything we 
report gets this right so that you can continue to use that 
tool for managing forests.
    Mr. Bonnie. Thank you very much. Prescribed fire is, 
indeed, a critically important tool for a range of issues, not 
the least of which is addressing catastrophic wildfire in large 
parts of the West. One of the reasons we have as intense fire 
as we have today is because for decades we have put out all the 
small, low-intensity fires, and fuels have built up in many of 
our forests and grasslands across the country. We have to have 
prescribed fire as a tool to be able to address that.
    There is always an inherent risk in using prescribed fire, 
despite our best efforts, that some will jump containment 
lines, and I think we welcome a conversation with all of you of 
ensuring we do as good a job to respond to landowners when that 
happens.
    But, what I would tell you is I think the risks of not 
using fire are substantial in terms of addressing catastrophic 
wildfire, and so we have to learn how to balance those risks at 
the same time that we are sensitive to the fact that we may 
have fires that get out of--that can get out of control.
    The other thing I would say is that prescribed fire is very 
important for a number of wildlife issues, whether it is quail 
in the Southeast, wild turkey. It is a critically important 
management tool and we need to continue to be able to utilize 
that for a range of resource concerns.
    Senator Stabenow. Thank you, Mr. Chairman. In the interest 
of time, I will stop at this point. If we have time at the end, 
I have another question or two, but at this point will defer to 
my colleagues.
    Chairman Roberts. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. I will be very 
brief.
    Our bill, S. 1744, Mr. Bonnie, would allow your Department 
to well at market rate about 30 tracts of National Forest 
System land in Georgia totaling about 4,000 acres and use the 
proceeds to strengthen the existing forest. You may not have 
had time yet to look at it, as I understand it, but it is 
modeled after the same legislation in states like Virginia, 
Arkansas, Texas, Mississippi, and Florida. I know you have 
experience in those states. Can you just elaborate briefly for 
us that process and your experience there and how you worked 
with the conservation partners in those states.
    Mr. Bonnie. Well, what I would tell you, while we have not 
had time to get into the specifics of the legislation, we 
support the broad approach. This is--it is an important 
approach that will allow us to deal with a lot of small tracts 
that are, some of them developed, some of them highly isolated, 
and that are, frankly, expensive for us to manage. The approach 
here is one we support, and then use the proceeds to work to 
purchase other more important tracts.
    This is, as you point out, this is an approach that has 
worked in a number of states, and as you also know, there are a 
number of conservation partners that have been working with you 
and others in developing this legislation. Again, we think it 
is a very sound approach and look forward to conversations with 
you and your staff on how we can move this forward.
    Senator Perdue. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. I appreciate it. I 
wish every hearing we had moved with this dispatch.
    [Laughter.]
    Senator Bennet. During the--and, Mr. Secretary, thank you 
for your excellent public service. During the 2014 farm bill, 
we worked on a provision to designate acreage suffering from 
insect and disease epidemics for expedited treatment. As you 
well know, and I know you have seen, Colorado has been ravaged 
by the bark beetle epidemic. In Northern Colorado and 
Southeastern Wyoming, more than four million acres have been 
affected.
    Could you please provide us with an update on the 
implementation of this new authority, and while you are at it, 
could you reinforce why changes to the budgeting process are so 
important in terms of fire borrowing?
    Mr. Bonnie. Will do. I very much appreciate the question. 
So, from a standpoint of the fire budget, I will start there. 
If you look in the late 1990s, 1998, and compare the level of 
staff on the National Forest System today, we have about 39 
percent fewer staff in the non-fire portion of the Forest 
Service than we had back then, and the reason is we have seen a 
substantial growth in our wildfire budget. As I said in my 
testimony, in most years, nearly 50 percent of our budget goes 
to wildland firefighting.
    That challenge has reduced our capacity to be able to get 
work done, whether it is trails work, whether it is forest 
restoration. Now, the good news is we are actually getting more 
work done in the woods. We are increasing the amount of acres 
we are treating and we are producing more board feed as a 
result. But, the fundamental challenge for us is one of 
capacity. It is not a lack of will, it is a lack of capacity 
for the agency.
    When you look at the excellent provisions in the 2014 farm 
bill--thanks to this committee and to you in particular for 
those provisions--we have moved quickly in working with 
governors to designate about 47 million acres across the 
country as areas that are insect and disease prone and that 
could use an expedited categorical exclusion under NEPA to 
address insect and disease in those areas where collaboratives 
have worked together to put together those projects.
    We did not get any new additional funding, but we have got 
so far about 17 projects under--that are moving forward using 
this, and that number will ratchet up over time. What we were 
not able to do because we, for example, in Colorado, have got a 
team committed to working on a large landscape scale effort on 
the GMUG, we did not want to take those teams off and put them 
on insect and disease. We expect that we will do increasingly 
more projects. We appreciate this authority and will begin to 
build it into our broader effort. So, this will become a very 
valuable tool to us.
    Again, the fundamental constraint with us doing more 
immediately has been just a lack of capacity.
    Senator Bennet. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman. I will be brief.
    One thing I wanted to say, I think that the Enzi-Bennet 
bill is a great idea. Actually, I probably would not have 
gotten involved in politics had I not led a volunteer effort 
for trail clearing for a single-track mountain bike trail on 
public land. So, I think that is great progress.
    I did have a question about Senator Thune's bill and your 
comment about your concern with it. Is there something short of 
what he is asking for--I think what we are trying to get to is 
coordination between state, local, and federal authorities--
something short of that versus simple opposition to the bill 
that you all have thought about?
    Mr. Bonnie. So, I think a couple of things in that. We 
always try and do our best in working with the State Foresters 
in North Carolina and other states on not only developing burn 
plans, but also making sure neighbors and local fire folks know 
about these--this legislation. So, that is one piece. We are 
always looking for ways to improve the ways we do prescribed 
fire. I think we do an excellent job. I think we have got great 
expertise. But, there is always more work to be done there, and 
coordination with State Foresters and others in states is 
critically important there.
    I think the other issue that I think we welcome a 
conversation on is what happens when something like the Pautre 
fire happens, where a fire escapes onto private lands. The 
Federal Torts Claim Act is one way to deal with that. We try to 
use other tools, including $41,000 through Environmental 
Quality Incentive programs, and we looked at FSA programs. The 
Forest Service looked at its own programs. I think it is worth 
having a conversation about how we can think about, whether it 
is thinking about disaster programs or other things in the farm 
bill. We welcome that conversation. It is to nobody's benefit 
to have neighbors or others who are upset about the use of this 
tool, and so we very much welcome a conversation around those 
issues.
    Senator Tillis. Thank you. Thank you, Mr. Chair.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    You probably were not real excited to see me walk through 
the door----
    Mr. Bonnie. I am always excited to see you.
    [Laughter.]
    Senator Heitkamp. You know, I want to just kind of talk a 
little bit about the Pautre fire and what has happened 
subsequent, and it is exactly those kinds of situations that 
have led to bills like Senator Thune's bill. I think one of the 
things that disturbs me about that fire is that when you look 
back, and when I talk to the ranchers who begged the Forest 
Service not to light that fire, who knew that they were at a 
high probability that fire would get out of control, in fact, 
when you look at the Bismarck Weather Service at the time, it 
called for gusts of 30 miles per hour in that area, but yet you 
guys lit the fire. That is one thing.
    People make mistakes, but when you make mistakes in that 
context, against that backdrop, and then you proceed to tell 
the ranchers, who have lost literally hundreds of thousands of 
dollars worth of equipment and inputs that they have put on the 
grasslands and you say it was not negligence, and, so, we are 
at the spot here where I understand and appreciate that you are 
going to manage your lands and prescribed burns are part of 
that. But, you have got to have a response when things get out 
of control that is not, we used our best judgment. Therefore, 
we are never negligent.
    If there is an opportunity to revisit that determination 
within the USDA and the Forest Service on what was done there 
and take a look at your ``not negligent'' determination, that 
would be greatly appreciated.
    I am back to Senator Tillis's example. It is exactly 
examples like this that lead to what may be perceived to be an 
interference with making those decisions, and so I would ask 
that you reexamine the facts of that fire, you actually 
personally call some of the ranchers out there who have told me 
that they repeatedly asked that fire not be lit and that we 
take care of that problem, and then look at how we can fix 
those problems in the future.
    Mr. Bonnie. Well, again, I think USDA and the Forest 
Service understand the deep concerns from landowners there and 
want to do everything we can to put it right. Our job under the 
Federal Tort Claims Act is to--we are bound by the law there 
and the standard is negligence. I respectfully disagree about 
whether we have met that standard and it is the General 
Counsel's call that we have not.
    I think, again, we tried to do, through EQIP and other 
things, to do as much as we could to be sensitive to the 
ranchers, fencing and other things, after, and again recognize 
that there is more we could do there and look forward to a 
conversation, whether it is disaster or other programs, to look 
at ways that we could do more.
    Senator Heitkamp. Well, as you know, we have been involved 
with this fire from the very beginning in my office, and if 
this is not negligence--and I have a little experience with the 
law--if this is not negligence, I do not know what is.
    Mr. Bonnie. Well, you have----
    Senator Heitkamp. You would never be held accountable.
    Mr. Bonnie. You have a lot more experience in the law than 
I do, and so I certainly would not question that at all. I 
would just say, I think we welcome the conversation about what 
else we can do to work in this area. The Federal Tort Claims 
Act is much bigger than prescribed fire or the Department of 
Agriculture and probably deserves a conversation with the 
Department of Justice on those types of things. But, I think, 
again, we welcome a conversation about if there is more we can 
do.
    Chairman Roberts. Senator Heitkamp, you have brought up an 
issue that is of a strong interest in the committee and we 
appreciate that. Secretary Bonnie, thank you for a 
straightforward answer. I think there is going to be a lot of 
meaningful dialogue that can come of this, but I am glad to say 
that you will be a partner in that effort, and Senator 
Heitkamp, thank you so much for bringing this up.
    I would like to insert into the record the statement of 
Senator Brown.
    [The prepared statement of Senator Brown can be found on 
page 26 in the appendix.]
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair. I know we have votes 
coming up, so in the interest of time, I will pass on questions 
today. Thank you.
    Chairman Roberts. Splendid.
    [Laughter.]
    Senator Ernst. Thank you very much.
    Chairman Roberts. Senator Sasse.
    Senator Sasse. It went so well for Senator Ernst, I will 
say the same.
    [Laughter.]
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Well, I appreciate that. You sure you 
guys do not want to--we are going to do a couple more questions 
here as we proceed. Again, thank you, Under Secretary Bonnie.
    I wanted to ask you, Senator Shaheen has put forward an 
effort as a part of this package to help private forest owners 
protect their lands from development and has also recognized 
the benefits of using bio-based materials in commercial 
buildings. One of the things we did in the farm bill is promote 
bio-based manufacturing as a way to create jobs, making things, 
growing things, bringing it together. I wonder if you could 
talk more and update us on the Department's efforts in 
promoting wood products and other bio-based goods.
    Mr. Bonnie. I very much appreciate the question, and to 
Senator Shaheen's point, about 14 percent of our greenhouse gas 
emissions right now come back down because of the forestry 
sector, because of the work, largely in private ownership, the 
work those landowners do. So, having markets, viable timber 
markets and other markets that create an economic incentive for 
landowners to maintain forest land is vitally important, not 
only for rural economic development, but also for dealing with 
a variety of wildlife and other environmental issues.
    We have worked hard to implement the bio-based program, and 
the good news is, it has now opened up to wood products that 
can get the bio-based label. So, that is an important step 
forward, I think. In addition, there is considerable work going 
on in the Department around wood in tall building construction 
and green building. It is not an area I am directly involved 
in, but there is a lot of work going on there, again, to create 
markets for sustainable timber use. Also, a lot of interest in 
bio-energy and opportunities there to create markets. Again, we 
have to create economic incentives for landowners to want to 
maintain forest land and the best way to do that is by creating 
viable markets.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Roberts. Would any other member like to ask any 
additional questions? We are waiting on Senator Thune, who 
would like to ask a couple of questions. Senator Heitkamp.
    Senator Heitkamp. As long as we have a waiting period here, 
I do have another question. Senator Dorgan back in 2006 created 
a demonstration project which required Forest Service to work 
collaboratively in creating implementation plans. I have heard 
a lot from the grazing associations that the Forest Service has 
not been following the procedure laid out in those 
demonstration plans. Can you tell us what steps you are taking 
to correct that and how we can work more collaboratively with 
our associations?
    Mr. Bonnie. I know the Chief has been to North Dakota to 
meet with some of the grazers there. I know, as well, I worked 
with your predecessor and Senator Hoeven, particularly in the 
McKenzie Grazing Association, to look for ways that we could do 
a better job of working together. The Forest Supervisor in the 
Dakotas is committed to this. There is more work we can do. We 
are not going to agree on everything. But, I think, 
collaboration is key, and we have also, I know, worked with 
North Dakota State University on ways that we can use better 
science.
    Senator Heitkamp. Just to follow on, obviously, these 
demonstration projects are going to terminate in 2016. Are you 
guys committed to extending those demonstrations?
    Mr. Bonnie. So, I am not familiar with the demonstrations. 
Happy to work with you on it, and I am assuming we are, but I 
am not briefed up on specifically these demonstrations.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Roberts. I have one further question. Last year, 
the Department initiated the Joint Chiefs Landscape Restoration 
Partnership--that is going to be a heck of an acronym--between 
the Chief of Forest Service and the Chief of the NRCS to 
restore landscapes across different types of land ownership and 
to reduce wildlife threats to communities and landowners, to 
protect water quality and habitat for wildlife. Can you tell me 
what the future plans for this initiative will be and with 
regards to any additional program resources that could possibly 
be directed in a very tight budget toward this partnership. 
Could there be improvements to this partnership to foster more 
restoration on landscapes?
    Mr. Bonnie. I really appreciate the question. The effort 
here is a recognition that wildland fire and watershed health 
do not respect property boundaries and that it is important to 
have the federal government in managing the National Forest 
System lands working closely with neighboring landowners. The 
idea here is to work across larger landscapes, particularly in 
areas where catastrophic wildfire is a challenge, to reduce 
fuel loads both on the federal land and on the private lands, 
and to use the NRCS programs to do that.
    You have in a number of places across the country, I think 
we have, I want to say it is 27 or 28 projects now over the 
two-year implementation. States across the country are working 
with the Forest Service and NRCS, working with conservation 
districts, producers, and others to treat lands, to improve 
watershed health, and to reduce fire.
    When we originally rolled out the program, we committed to 
three years. We will--I think that third year now will be next 
fiscal year and we will look for additional opportunities. EQIP 
has been very important in this area. I think we will evaluate 
after three years and decide whether we want to move forward.
    Chairman Roberts. I appreciate your support for EQIP, which 
always seems to be suffering under the budget axe, and we, 
then, have the responsibility of restoring funds, which we will 
try to do.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much.
    Mr. Under Secretary, we appreciate you being here. We 
appreciate your public service, especially on these difficult 
issues.
    I am one who believes that as we discharge our duty to do 
oversight, part of that is to be critical where we should and 
part of that is to be tough in our questioning, but we should 
also provide the resources that you need to do your job.
    I wanted to focus on the resource question as it relates to 
invasive species. In our state, for example, the emerald ash 
borer has become a substantial issue, at least in the time that 
I have been in the Senate, and it is not a subject here I knew 
a lot about before I got to the Senate. I know you have to 
wrestle with these and other difficult issues, but first of 
all, I want to commend USDA for the response that has been 
undertaken over the last couple years in preventing the 
introduction and spread of invasive pests and plants. But, I 
come back to the question of resources and dollars. Can you 
give us a sense of, A, what you need, and B, how we can be 
helpful?
    Mr. Bonnie. I very much appreciate the question. We have 
got a number of issues with invasive species. Emerald ash borer 
is one of the more acute, but there are a number across the 
country. They are creating real challenges for forests as well 
as other ecosystems, cheatgrass and you name it.
    The Department actually has a number of agencies working on 
this. Agricultural Research Service doing some important 
research into a number of areas. APHIS obviously oversees a lot 
of our invasive species work. But, the two land management 
agencies deal with this in a significant way. NRCS, 
particularly as it relates to agricultural lands and rangeland, 
and then the Forest Service with emerald ash borer and others.
    You know, a lot of our resources for this is out of our 
state and private forestry program and those resources tend to 
be passed through to state foresters and others on the ground 
for states to implement these types of programs. Like a lot of 
things in the Forest Service budget, those areas have been 
squeezed because of the increasing fires that we are seeing, 
longer fire seasons, and so we are having to make very 
difficult choices within the Forest Service about where we 
spend money. So, I will give you another pitch for the Wildland 
Fire Disaster Act and fixing the fire budget problem, which 
will help with this and a lot of other things.
    So, I think that is one area that is important, and I think 
also looking at the opportunities for bolstering the state and 
private budget to deal with these is going to be incredibly 
important. I think there are some creative things we can do 
with NRCS dollars as well as some of the other agencies to 
continue to do work here, but it is a critical area and one 
that I think we wish we had additional funds to address.
    Senator Casey. Mr. Chairman, in the interest of conserving 
and preserving valuable time, I will yield and submit some in 
writing.
    Chairman Roberts. I thank the Senator.
    Senator Grassley.
    Senator Grassley. I have no questions.
    Chairman Roberts. Are you well?
    [Laughter.]
    Senator Grassley. I was taking care of the Finance 
Committee for you.
    [Laughter.]
    Chairman Roberts. I really appreciate that. Did you get the 
GAO to answer the question that you asked them?
    Senator Grassley. Just the way I wanted it answered.
    Chairman Roberts. I appreciate that very much.
    Senator Klobuchar and Senator Thune would like to make an 
appearance, but at this time, I would ask unanimous consent----
    Senator Stabenow. There he is.
    Senator Thune. Talk about perfect timing.
    Chairman Roberts. But, I would just ask unanimous consent 
on behalf of Senator Brown, who was present before the 
committee, that his statement be inserted into the record just 
prior to the recognition of Senator Ernst. Without objection, 
it is so ordered.
    Coop, are you ready?
    Senator Thune. Yes, sir.
    Chairman Roberts. Senator Thune.
    Senator Thune. This is a bull rider here today. Is that 
just for me?
    [Laughter.]

 STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM THE STATE OF 
                          SOUTH DAKOTA

    Senator Thune. Mr. Chairman, thank you, and thanks for 
holding this hearing, and thank you for your patience. I was 
running over from the Finance Committee, where we had a hearing 
on----
    Senator Grassley. A very important hearing.
    Senator Thune. A very important hearing that Senator 
Grassley was----
    [Laughter.]
    Chairman Roberts. It was a hearing that was exceedingly 
important, and I should have been in attendance. Obviously, we 
were taking care of the forests of America.
    [Laughter.]
    Chairman Roberts. Including your state.
    Senator Thune. Equally important, I might add.
    [Laughter.]
    Senator Thune. I would just like, if I could--and I have 
got a statement I will submit for the record, but ask just a 
couple of questions.
    [The prepared statement of Senator Thune can be found on 
page 29 in the appendix.]
    Senator Thune. I know that the Under Secretary is delighted 
to have to wait around to answer some of these questions, but I 
have got a bill that addresses a situation that we faced in the 
last couple of years in South Dakota. We have had two fires 
that have burned out of control, one started by the Forest 
Service, which damaged a lot of property, cost people in 
Western South Dakota a lot of money, and never acceptance of 
responsibility by the Forest Service or any attempt to make 
whole some of these people who were affected by this. It 
happened two years ago up in Northwestern South Dakota and then 
more recently here this year in the Black Hills near Wind Cave.
    I introduced a bill that very simply would just require 
collaboration with local--with the state, local entities before 
these prescribed burns are initiated. I guess I would 
appreciate the question from Secretary Bonnie about any 
information that he might have about the number of claims filed 
over the past ten years resulting from prescribed burns that 
damage private property and the number of claims that were 
actually paid. Do you have that information, and if so, could 
you provide it to me in the near future?
    Mr. Bonnie. I am sure we have it. I do not have it with me, 
but I am happy to provide that.
    Senator Thune. Would you support providing the Secretary 
with discretionary authority to pay upon receipt of credible 
claims indemnity payments under $25,000 or some other 
appropriate cap rather than forcing claimants to wait two years 
or more?
    Mr. Bonnie. The two-year wait is clearly a challenge for 
many producers. I think what I said earlier today is I would 
welcome a conversation about more that we can do to make 
landowners right. It is not in our interest to have folks out 
there that are feeling like they are slighted by the federal 
agency. So, welcome the conversation. Not exactly sure of the 
right mechanism. As we tried to do things both with EQIP as 
well as look at some other programs, but I think we very much 
welcome that conversation.
    Senator Thune. Well, if we could, because the, particularly 
the Pautre fire up near Lemmon, South Dakota, several years now 
passed and this process just drags on and on and on. These 
people are left in just a state of complete uncertainty.
    You provide in your testimony that an accelerated claims 
process could benefit individuals who have suffered damages 
resulting from an escaped prescribed fire when these 
unfortunate events occur. Do you have any suggestions about how 
an accelerated claims process could be implemented?
    Mr. Bonnie. So, I mentioned earlier that I am nervous 
about--you have got the wrong guy up here if you want to talk 
about the Federal Tort Claims Act. That is a DOJ issue. But, I 
do think there are other things we could do. There are other 
programs. We could look at livestock disaster programs and 
others that might allow us to act more quickly here. So, I 
think, again, we are open to those conversations with you all 
and recognize that it is going to be important not just for 
these landowners, but, frankly, for prescribed fire going 
forward.
    Senator Thune. Okay. I appreciate that, that how we deal 
with these after the fact, but I also think that--and this is 
why we filed the bill--is on the front end, before these things 
are started, people who understand these conditions--the Forest 
Service had no business in a couple of these circumstances 
starting fires, given the weather conditions that were existing 
at the time, and people at the local level would know that. So, 
all we are asking for is consultation on the front end, before 
this happens, and work with folks and get their sign-off, and 
then on the back end, when something like this happens, a 
response that is actually timely, expedited, and effective.
    So, I thank you, Mr. Chairman, for giving me the 
opportunity to make those remarks.
    Chairman Roberts. Mr. Secretary, you can see very clearly 
that with Senator Heitkamp asking very similar questions and 
Senator Thune asking questions, this is a very pertinent issue, 
and I know you will respond, like you said before, with 
meaningful dialogue.
    Mr. Bonnie. Absolutely.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, Under Secretary, for being here.
    I was actually at one of our paper mills just the last 
week, owned by Potlatch, an amazing mill with a hundred 
employees, pays incredibly well, and has been able to get 
through the downturn. Obviously, logging is very important in 
our part of the world. My Dad grew up in an area where my 
Grandpa worked in the mines, and when the mines closed, he 
became a logger and was in timber. It is very important up in 
Northern Minnesota.
    There are some issues right now, and the first one I wanted 
to ask about was the multiple use of public lands. I met with 
officials, as I mentioned, at several mills in Northern 
Minnesota who are concerned that Minnesota national forests are 
not producing at their allowable sale quantity. I know the 
direction of the Forest Service timber program has improved 
recently and responsible timber harvests on public lands have 
grown to nearly three billion board feet.
    What, if anything, is holding the Forest Service back from 
continuing this upward trend? Are you using the new tool from 
the farm bill, and what can we do to get to the actual 
allowable sale quantity, because for me, as Senator Thune 
brought up, you have forest fires because you have got wood 
that should actually be taken out, and then you have, right now 
with the economy doing better, you actually have a need for the 
wood. Instead of getting it from the forests, they are having 
to import it from other countries, which makes no sense to me, 
so----
    Mr. Bonnie. It is a great question. So, our top priority in 
management of the National Forest System has been to increase 
the pace and scale of forest restoration and management to get 
more work done. As you point out, we have increased the amount 
of timber sold by about 18 percent since 2008, but there is 
more work to be done. The fundamental challenge we have right 
now is one of capacity. We have got 39 percent fewer employees 
on the National Forest System than we had in the late 1990s, 
and the reason for that is we are devoting more and more of our 
resources to fighting fire. As you point out, we need to do 
more work on the front end to reduce wildland fire.
    The Wildland Fire Disaster Funding Act, as well as the 
President's budget, has a proposal which will increase the 
amount of work we can get done on the national forests by about 
ten percent. That is equivalent to about 300 million board 
feet. So, if there is one thing Congress can do in the 
immediate term that will produce more timber, that is it.
    In addition, we are implementing the farm bill provisions, 
both insect and disease, which can provide some relief, as 
well, with some streamlined processes. We will continue to move 
forward with that.
    Then, good neighbor authority in the farm bill, as well, 
will be important for areas where there are state lands 
involved.
    Senator Klobuchar. Right, exactly. We know in Minnesota the 
borders of our forests do not always align with private, state, 
or federal property lines, which often leads to these requests 
for conveyances, and you mentioned the good neighbors authority 
out of the 2014 farm bill, and that gave the Forest Service 
additional flexibility to work with willing state and private 
landowners, and I know you are working with the Minnesota 
Department of Natural Resources on several projects to increase 
timber production and protect communities from wildfire. So, is 
there an update on when you plan to conclude the new good 
neighbor agreements?
    Mr. Bonnie. So, we finished--we now have the new templates 
that have gone through the Paperwork Reduction Act and been 
finalized, so we are now engaging with states directly on how 
to do that, and we are educating our staff through training and 
webinars and other things. So, there are conversations right 
now, and I believe in Minnesota, but I will check on that, with 
State Foresters and others about how to engage and use this 
authority.
    Senator Klobuchar. Okay. We will have a follow-up on a 
staff level here to try to figure this out, because I think it 
would be very helpful.
    Last question, the Northern long-eared bat. As you know, 
our forests are a great natural resource that provide multiple 
benefits, including habitat for wildlife. I have led now 
several bipartisan letters and worked with the Department of 
Interior--I just actually spoke with someone about this this 
morning--and USDA on ensuring the health of our forests, 
maintaining the communities, and preserving the Northern long-
eared bat. As you know, we are trying to do this in a pragmatic 
way that allows our logging to continue.
    Mr. Bonnie, will the Forest Service be able to implement 
its timber sale program this fiscal year and going forward 
without disruption due to the threatened listing, or will you 
need to engage in project-by-project consultation with the Fish 
and Wildlife Service?
    Mr. Bonnie. So, I do not believe so. We have had 
conversations--I have had conversations personally with Dan 
Ashe, Director of the Fish and Wildlife Service, on this issue, 
and I know there are a lot of conversations at the regional and 
local level in the Superior and other national forests.
    As you point out, the threat to the long-eared bat is not 
forest management. It is white-nose syndrome. Interestingly, 
the Forest Service is doing some of the best research on that 
right now----
    Senator Klobuchar. Good.
    Mr. Bonnie. --and has some very good work there.
    But, I think we recognize that we need to keep forests as 
forests in order to protect this bat and that means creating a 
viable forest industry, and we will continue to work with the 
Fish and Wildlife Service to make sure there is flexibility 
through a 4(d) rule or whatever to ensure that continues to 
happen.
    Senator Klobuchar. Do you think we can still go forward 
with a timber sale program this fiscal year?
    Mr. Bonnie. I do.
    Senator Klobuchar. We will not need this consultation? All 
right. Thank you.
    Chairman Roberts. For all members, until the vote is 
called, if anybody has any questions, why, I am more than happy 
to recognize Senator Ernst and, I think, Senator Sasse, who 
also yielded back knowing, of course, that we were going to 
vote at 10:45. Obviously, that time has left. Imagine that.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for this 
hearing. Thank you, Madam Ranking Member.
    New York, which most people do not know, is one of the 
greenest states in the country, with 18.9 million acres of 
forest covering 63 percent of its land. That is nearly one acre 
per New Yorker. New York is home to the Finger Lakes National 
Forest, nearly three million acres of forest preserved in the 
Adirondack and Catskill Parks, and more than 787,000 acres of 
state forests. Each year, our residents and millions of New 
Yorkers enjoy cleaner air, cleaner water, beautiful vistas, 
recreational opportunities, and economic benefits, and our 
forestry industry actually employs 60,000 New Yorkers and 
contributes about $4.6 billion to our economy.
    So, one of the challenges that the forests in New York face 
are the threats from pests, including the Asian long-horned 
beetle, the emerald ash borer, and most recently, the Southern 
pine beetle, and it is devastating Long Island and the Central 
Pine Barrens. The Forest Service National Strategic Framework 
for Invasive Species Management focuses on prevention, 
detection, control, management, and restoration. Can you talk a 
little bit about the ongoing efforts by the Forest Service to 
address the persistent pest threats to New York's forests and 
the emerging threats to our pine forests?
    Mr. Bonnie. I am happy to. I think a few decades ago, 
nobody thought the Southern pine beetle was going to show up in 
New York, but, indeed, it has, and we are seeing a number. That 
is native to the South, but the other pests you talk about--
Asian long-horned beetle, the emerald ash borer, and others--
are obviously introduced pests. We have resources in our state 
and private program that pass through State Foresters that we 
use to address many of these threats, but there are also other 
parts, as I mentioned earlier today, other parts of the agency, 
of the Department, APHIS, NRCS, and others, that have resources 
here, as well.
    There is an enormous need here and, frankly, we do not have 
the resources we need to do everything we can on invasive 
species, and I think we are having to make some difficult 
choices related to these issues. So, I think we will continue 
to focus on this, but as with a lot of things in the Forest 
Service, our budget is squeezed on some of these efforts and we 
will have to prioritize where we put our dollars.
    Senator Gillibrand. Do you have a sense of how much it 
would cost to address these pests appropriately?
    Mr. Bonnie. I do not. I think the price tag is very, very 
high for some of these, and I think if you open up the universe 
to things like cheatgrass and others, that the universe gets 
significantly larger, still.
    Senator Gillibrand. So, I would like your office to prepare 
a budget and actually give us an estimate for how much it costs 
so that we can begin to think about, if we are really going to 
address these invasive species, what it costs so that we can 
debate it, discuss it, decide whether it is worth that 
investment. But, I do not want to hear the excuse, we do not 
have resources, because we have to meet these challenges. So, 
give me a budget, tell me what it costs, and then we as a 
committee will work on that and we will work with 
appropriators.
    Mr. Bonnie. Great. Appreciate that.
    Senator Gillibrand. Thank you. Thank you, Mr. Chair.
    Chairman Roberts. Senator Ernst, would you like to opine 
with any questions that you have?
    Senator Ernst. No. Thank you, Mr. Chairman.
    Chairman Roberts. I appreciate that.
    Well, members, that concludes our hearing this morning, 
unless anybody has any further comment. I want to thank our 
witness, especially, for sharing your experiences relating to 
pending Forest Service and forest related bills and answering 
questions in a forthright manner. Your thoughts and insight 
will be helpful as we consider the legislation later this 
summer.
    This committee stands adjourned.
    [Whereupon, at 10:54 a.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             JULY 16, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JULY 16, 2015

   



======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 16, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
